Department of Homeland Security
   Ofﬁce of Inspector General

             U.S. Coast Guard's Anti-Deficiency Act 

            Violations for the Response Boat-Medium 

                   Major Acquisition Project for 

                 Fiscal Years 2004 Through 2009 





OIG-11-82                                               May 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                             MAY 1 0 2011

                                         Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses whether Anti-Deficiency Act violations occurred through improper
use of appropriations during the administration of the Response Boat-Medium Major
Acquisition project between fiscal years 2004 and 2009. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective; efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                     lime   L. Ie ar s
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................3 


     ADA Violations for FYs 2004 Through 2009 ...............................................................3 


Conclusion ...........................................................................................................................5
 


Recommendations................................................................................................................5
 


Management Comments and OIG Analysis ........................................................................6 


Appendices
     Appendix A:            Purpose, Scope, and Methodology.........................................................8 

     Appendix B:            Management Comments to the Draft Report .......................................10 

     Appendix C:            FY 2004 Through 2009 Anti-Deficiency Act Violations......................12 

     Appendix D:            Major Contributors to this Report........................................................13 

     Appendix E:            Report Distribution ..............................................................................14 


Abbreviations
     ADA                    Anti-Deficiency Act 

     Coast Guard            United States Coast Guard 

     FY                     fiscal year           

     OIG                    Office of Inspector General 

     OMB                    Office of Management and Budget 

     RB-M                   Response Boat-Medium          

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                          The Coast Guard initiated the acquisition of the Response Boat-
                          Medium in 2002 to replace its aging utility boat fleet. The Coast
                          Guard identified potential Anti-Deficiency Act violations in this
                          project in 2009 and initiated an internal investigation. As a result
                          of its review, the Coast Guard issued a stop-work order in 2010 to
                          limit additional Anti-Deficiency Act violations. The Coast Guard
                          requested an Office of Inspector General audit to determine if it
                          had incurred Anti-Deficiency Act violations in connection with this
                          project.

                          The objective of our audit was to determine whether Anti-
                          Deficiency Act violations occurred through improper use of
                          appropriations during the administration of the Response Boat-
                          Medium Major Acquisition project between fiscal years 2004 and
                          2009. We examined the Coast Guard’s reported potential
                          violations, expenditures, and acquisition contract actions, as well
                          as the effectiveness of the Coast Guard’s new policies and
                          procedures to ensure compliance with future appropriations.

                          The Coast Guard exceeded its appropriated funding for the
                          Response Boast-Medium project during fiscal years 2004 through
                          2009. The violations were caused by a lack of Coast Guard
                          acquisition policies, procedures, and training, which resulted in
                          unallowable use of appropriations for design changes.
                          Accordingly, we recommend that the Coast Guard notify the
                          Secretary that it incurred 20 Anti-Deficiency Act violations totaling
                          approximately $7 million and identify the names of the responsible
                          parties, including the funding officials (headquarters funds
                          managers) and obligating officials (contracting officers). We also
                          recommend that the Coast Guard revise its standard operating
                          procedures. The Coast Guard agreed with both recommendations
                          and has initiated action to implement them.




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 1 

Background
                          In 2002, the Coast Guard initiated an acquisition project called
                          Response Boat-Medium (RB-M) to replace its aging fleet of 41­
                          foot utility boats. While the 41-foot utility boat was designed
                          primarily to engage in search and rescue missions, the Response
                          Boat-Medium has greater speed and range than its predecessor to
                          better fulfill expanding operations in ports, waterways, and coastal
                          security missions. The Response Boat-Medium Major Acquisition
                          project will provide the Coast Guard improvements in
                          performance, crew efficiency, and operational availability.




                   Response Boat-Medium                                41-Foot Utility Boat

                          The RB-M project is a two-phase procurement to quickly acquire
                          and field an operationally effective and suitable craft to meet Coast
                          Guard needs. The first phase allowed the Coast Guard to select the
                          most operationally effective test boat to meet its needs. After the
                          test boat selection, the Coast Guard initiated the second phase to
                          procure 180 RB-Ms. In 2006, the Coast Guard awarded a firm
                          fixed-price contract to Marinette Marine Corporation for boat design
                          and production. The contract consists of a base period of 5 years
                          with an option period of an additional 3 years. Production began
                          with the delivery of the first boat in March 2008. As of November
                          2010, the RB-M project had delivered 41 boats, with 19 additional
                          boats currently in production. The project expects to reach full
                          operating capability by the end of fiscal year (FY) 2015, producing
                          approximately 30 boats per year.

                          In 2009, the Coast Guard identified a potential violation of the
                          Anti-Deficiency Act (ADA) in the RB-M project. The Coast Guard
                          received appropriations for this project beginning in 2004. The
                          Coast Guard recognized that the RB-M project may have
                          inappropriately exceeded its appropriations and began an internal



U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 2 

                            inquiry, which found potential ADA violations totaling
                            approximately $7.8 million.

Results of Review
         The Coast Guard exceeded its appropriated funding for the RB-M project during
         FYs 2004 through 2009. As a result, the Coast Guard incurred ADA violations
         totaling approximately $7 million, which cannot be corrected. We found that the
         Coast Guard lacked standard operating procedures on how to account for future 1
         liabilities and that personnel had inadequate training. Although the Coast Guard
         has taken some corrective actions, additional measures are needed to prevent
         future ADA violations. We recommend that the Coast Guard notify the Secretary
         of 20 ADA violations totaling approximately $7 million. The Coast Guard must
         also revise its standard operating procedures to require responsible staff to make
         an initial future liability determination, review and revise future liability amounts
         at regular intervals, and determine if funding for future liabilities should be held at
         the Coast Guard headquarters or with the Project Residence Office.

         ADA Violations for FYs 2004 Through 2009
                  The Coast Guard entered into a firm fixed-price contract in 2006 to design
                  and build the Response Boat-Medium. Subsequently, the Coast Guard
                  initiated design changes. Federal appropriations law 2 states that contract
                  claims arising from changes to an existing contract are chargeable to
                  appropriations current at the time the base contract was executed. This
                  type of change, commonly referred to as a within-scope change, is
                  considered a future liability. A contract claim is based on a future liability
                  if the modification is within the general scope of the original contract.
                  The Coast Guard made contract modifications that were not recognized as
                  future liabilities and were not charged to appropriations related to the
                  original contract. The Coast Guard’s design changes were incorrectly
                  charged to current year funding rather than to appropriations used for the
                  original boat delivery order.

                  The Coast Guard initiated a review of the RB-M project in 2009 and
                  identified potential ADA violations during FYs 2004 through 2009,
                  totaling approximately $7.8 million. We reviewed each of the ADA
                  transactions identified by the Coast Guard to determine if they were
                  appropriately identified and correctable. We concur with the Coast
                  Guard’s results, but we identified corrections made to the RB-M project
                  after the Coast Guard’s review was completed. These corrections reduced
1
  Future liability refers to government liabilities that arise and are enforceable under a provision in the 

original contract. 

2
  65 Comp. Gen. 741(1986); 59 Comp. Gen. 518 (1980). 



U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                     Page 3 

                 the ADA total initially reported in the internal review by approximately
                 $800,000.

                 The Coast Guard initiated two corrective actions to minimize its ADA
                 violations. First, the Coast Guard corrected inappropriate charges where
                 funding was available in the correct appropriations. These corrections
                 reduced the ADA amount by approximately $500,000. Second, the Coast
                 Guard issued a stop-work order on design changes in 2010. This order
                 reduced obligations by approximately $300,000 by reducing the work
                 required of the contractor.

                 As illustrated in Table 1, we determined that the Coast Guard incurred 20
                 ADA violations totaling approximately $7 million. The Coast Guard does
                 not have the funding available to correct these deficiencies. In addition,
                 the Coast Guard still owes the contractor approximately $1 million for
                 partial work completed before it issued the stop-work order.

                 Table 1. RB-M Anti-Deficiency Act Total

                             Anti-Deficiency                  Number of            Anti-Deficiency
                           Related Transaction               Transactions            Amounts
                                 Number                        Affected              Identified
                                  1002                            9                 $5,505,259 3
                                 1003ac                           1                   $217,944
                                    1003bc                        1                    $108,972
                                     1009                         9                    $877,775
                                    Totals                        20                  $6,709,950

                 We tested RB-M acquisition expenditures for FYs 2004 through 2010 to
                 ensure that no other ADA violations occurred in addition to those
                 identified during the Coast Guard’s internal review. We reviewed 84
                 expenditures totaling approximately $252 million and found no additional
                 ADA violations.

                 The Coast Guard initiated corrective actions to prevent future ADA
                 violations. It revised its acquisition policies and procedures to require
                 contracting officers to identify future liabilities or use a 10% standard set­

3
  Adjustment made due to an agreement between the contractor and the government to assess the value for
partial work completed on transaction number 1002 (ECP-009). The total amount spent on transaction
number 1002 was $5.9 million; however, there was a reduction to this amount for $1,356,320 as a partial
termination for convenience. Subsequently, a termination proposal settlement was reached for a value of
$1,024,551, which was $331,769 lower than the partial termination for convenience, $1,356,320.


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 4 

                 aside. However, this guidance does not fully address all requirements for
                 future liability determinations. The revised acquisition guidance does not
                 identify all responsible parties necessary to make accurate future liability
                 determinations. In addition, it does not require future liability revisions at
                 regular intervals, nor does it address whether funding for future liabilities
                 should be held at the Coast Guard headquarters or with the Project
                 Residence Office.

                 The Coast Guard has updated training requirements to include
                 appropriations law training for acquisition staff, including funds managers
                 and contracting officers. This training requirement was added to ensure
                 that acquisition staff understand the guidelines and requirements for
                 appropriations. We reviewed training files to ensure that acquisition staff
                 had completed this course and found that all but two staff members had
                 done so. These two remaining staff are scheduled to complete the training
                 in February 2011.

                 The Coast Guard has also revised its general process for contract
                 administration. On the basis of the ADA violations identified in the RB­
                 M project, the Coast Guard’s Office of Resource Management now
                 requires secondary review of large acquisitions initiated at the Project
                 Resident Office. Fund managers at the Project Resident Office must now
                 receive approval from acquisition management before issuing change or
                 delivery orders to the contracting officer.

                 Conclusion

                 We concur with the conclusions from the Coast Guard’s internal
                 investigation identifying ADA violations for FYs 2004 through 2009. The
                 Coast Guard’s lack of policies, procedures, and training led to the
                 improper use of appropriations for design changes. The Coast Guard has
                 instituted changes to the required training for acquisition staff, which
                 provide funds managers and contracting officers the knowledge to
                 recognize requirements for expending appropriations. However, the Coast
                 Guard needs to provide further clarification in its guidance on future
                 liabilities.

                 Recommendations
                          We recommend that the Coast Guard’s Assistant Commandant for
                          Resources and Chief Financial Officer:

                          Recommendation #1: Report the 20 ADA violations totaling
                          approximately $7 million to the DHS Secretary in compliance with


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 5 

                          ADA reporting requirements. For each violation, the report should
                          include the title and Treasury symbol (including fiscal year) of the
                          appropriation or fund account, the amount involved, the date the
                          violation occurred, the type of violation, the primary reason or
                          cause, and the names of the responsible parties, including the
                          funding officials (headquarters funds managers) and obligating
                          officials (contracting officers).

                          Recommendation #2: Revise the Coast Guard’s standard
                          operating procedures on future liabilities to include the following:

                               �	 Initial future liability determinations should be made by
                                  contracting officers, funds managers, program managers,
                                  and the engineering group.
                               �	 Initial future liability determinations should be reviewed
                                  and revised at regular intervals to ensure accuracy.
                               �	 A determination should be made to specify if funding for
                                  future liabilities should be held at the Coast Guard
                                  headquarters or with the Project Residence Office.

                 Management Comments and OIG Analysis

                          Coast Guard’s Comments to Recommendation #1:

                          Concur. As required, the Coast Guard has reported on each
                          violation to include the title, Treasury symbol, amount, the date
                          violations occurred, the type of violation, the primary reason or
                          cause, and the responsible officials. The Coast Guard provided us
                          with a copy of its letter to the Deputy Chief Financial Officer of
                          Homeland Security identifying the violations. The Coast Guard
                          also provided draft transmittal letters for use in advising the
                          President, the Director of the Office of Management and Budget
                          (OMB), Congress, and the Comptroller General per OMB Circular
                          A-11, section 145.

                          OIG Analysis:

                          The Coast Guard’s corrective actions satisfy the intent of the
                          recommendation, and we consider it resolved and closed.

                          Coast Guard’s Comments to Recommendation #2:

                          Concur. The Coast Guard revised its policy to provide clarity for
                          future liabilities to ensure consistent application of the policy


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009

                                                  Page 6
                          throughout the Coast Guard. The Coast Guard included the
                          relevant sections of the CG-9 Acquisition Financial Standard
                          Operating Procedures with the revised procedures on future
                          liabilities.

                          OIG Analysis:

                          The Coast Guard’s corrective actions satisfy the intent of the
                          recommendation, and we consider it resolved and closed.




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009

                                                  Page 7
Appendix A
Purpose, Scope, and Methodology

                          The objective of our audit was to determine whether ADA violations
                          occurred through improper use of appropriations during the
                          administration of the Response Boat-Medium project between FYs
                          2004 and 2009.

                          The Coast Guard provided its universe of 117 RB-M contract
                          actions totaling about $260 million, funded and executed from
                          June 21, 2006, through September 20, 2010. Included within this
                          universe were 26 transactions identified by the Coast Guard as
                          potential ADA violations totaling approximately $7.8 million, as
                          well as 7 transactions where the Coast Guard took actions to
                          correct the ADA violations. We tested all 26 potential violations
                          to determine (1) whether the Coast Guard properly identified the
                          transactions as ADA violations, (2) the responsible parties who
                          authorized the expenditures, and (3) whether any of the ADA
                          violations were correctable based on available funding. To ensure
                          that there were no additional ADA violations, we selected,
                          reviewed, and tested all transactions from FYs 2004 to 2010 that
                          were not included in the Coast Guard’s internal review. They
                          included 84 additional transactions totaling approximately $252
                          million. In addition, we reviewed the Coast Guard’s acquisition
                          policies and procedures, prior audit reports, and other applicable
                          laws and regulations. Finally, we examined DHS Appropriation
                          Acts for FYs 2005 through 2010 for the Coast Guard’s Acquisition
                          Construction & Improvement account.

                          We interviewed officials at the Coast Guard’s headquarters in
                          Washington, D.C., at the Coast Guard’s RB-M Project Resident
                          Office in Kent, Washington, and at the Coast Guard’s RB-M
                          Contracting Office in Marinette, Wisconsin.

                          We relied on Coast Guard computer-processed data that contained
                          information on the potential ADA violation universe, including
                          accounting and appropriation data for its RB-M project. We
                          conducted limited tests on this information by verifying all 117
                          contract actions back to the source contract documentation. In
                          addition, we validated the Coast Guard’s universe of 26 potential
                          ADA violations. On the basis of these tests, we concluded that the
                          data were sufficiently reliable for addressing our audit objective.

                          We performed our audit between September and December 2010.
                          We conducted the audit pursuant to the Inspector General Act of
                          1978, as amended, and according to generally accepted


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009

                                                  Page 8
Appendix A
Purpose, Scope, and Methodology

                          government auditing standards. These standards require that we
                          plan and perform the audit to obtain sufficient, appropriate
                          evidence to provide for a reasonable basis for our findings and
                          conclusions based on our audit objectives. We believe the
                          evidence obtained provides a reasonable basis for our findings and
                          conclusions based on our audit objectives.

                          We would like to thank the Coast Guard for the cooperation and
                          courtesies extended to our staff during this review.




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009

                                                  Page 9
Appendix B
Management Comments to the Draft Report



            U.S. Dep;utment
            Homeland Security

            United Statell
                              ofYII            Command,nl
                                               UnMd $l'~ COllSl Guard
                                                                                 2100 8econdSt_. SW..Slop 7245
                                                                                 Washinglon. DC 205!n-7245
                                                                                 SI,fI Symbol: COMOT (CG-S)
                                                                                 P!Ione: (202) 372·:1569
                                                                                 f ....' (202) 372-3947
            Coast Guard
                                                                                 7000
                                                                                 APR I 3 2011
            MEMORANDUM FOR:             Anne L. Richards
                                        Assistant Inspector General for Audits

                                        ~C~_
            FROM:                       Rear Admiral Keith A. Taylor
                                        Assistant Commandanl for Resources and
                                        Chief Financial Officer
                                        U.S. Coast Guard

            SUBJECT:                    United Stales Coast Guard's Reported Antidejlciency Vialatian/ar
                                        the Response BOOf-Medium Major Acquisition Project/or Fiscal
                                        Years 2004 Through 2009 - FOR OFFICIAL USE ONLY (FOUO)
                                        DIG Prajecf No: lo-I55-AUD-USCG


            This memorandum lransmits the Coast Guard's comments to the draft Office of inspector
            General (OIG) Report, Project No: 10-155-AUD-USCG

            My poin! of contact is CAPT Frank H. Kingelt, ChiefOffice of Resource Management. He can
            be reached at (202) 372-3550 if you have any questions.

            Anachments: (1) Response to Recommendations
                        (2) Financial Standard Operating Procedures, Revision 3.5
                        (3) Notification memo to DHS reporting violations




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                    Page 10

Appendix B
Management Comments to the Draft Report




                 UNITED STATES COAST GUARD (USCG) STATEMENT
                    ON DEPARTMENT OF HOMELAND SECURITY
                       INSPECTOR GENERAL DRAFT REPORT
                           OIG 10-155 DATED 14 FEB 2011

TITLE: UNITED STATES COAST GUARD'S REPORTED ANTI-DEFICIENCY
VIOLATION FOR THE RESPONSE BOAT-MEDIUM MAJOR ACQUISITION
PROJECT FOR FISCAL YEARS 2004 THROUGH 2009 - FOR OFFICIAL USE ONLY
(FOUO). DIG PROJECT NO: lO-155-AUD-USCG


Recommendation #1: Report the 20 ADA violations totaling approximately $7 million
to the DHS Secretary in compliance with ADA reporting requirements. For each
violation, the report should include the title and Treasury symbol (including fiscal year)
of the appropriation or fund account, the amount involved, the date the violation
occurred, the type of violation, the primary reason or cause, and the names of the
responsible parties, including the funding officials (headquarters funds managers) and
obligating officials (contracting officers).

CG Response: The Coast Guard concurs with the recommendation. As required, the
Coast Guard has reported on each violation to include the title, Treasury symbol, amount,
the date violations occurred, the type of violation, primary reason or cause and the
responsible officials (Encl 3).

Recommendation #2: Revise the Coast Guard's standard operating procedures on future
liabilities to include the following:

         • Initial future liability determinations should be made by contracting officers,
         funds managers, program managers, and the engineering group.
         • Initial future liability determinations should be reviewed and revised at regular
         intervals to ensure accuracy.
         • A determination should be made to specify if funding for future liabilities
         should be held at the Coast Guard headquarters or with the Project Residence
         Office.

CG Response: The Coast Guard concurs with the recommendation. The Coast Guard's
revised policy provides clarity for future liabilities to ensure consistent application of the
policy throughout the Coast Guard (Encl 2). An excerpt of the CG-9 Acquisition
Financial Standard Operating Procedures, Revision 3.5 is provided.




                                                                                            ENCLOSURE( I )


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 11

Appendix C
FY 2004 Through 2009 Anti-Deficiency Act Violations

             FY 2004 Through 2009 Anti-Deficiency Act Violations

                 Item Count        Transaction Number                       Total
                      1           CLIN 1002 – 1                                 $396,000
                      2           CLIN 1002 – 2                                 $352,000
                      3           CLIN 1002 – 3                                 $308,000
                      4           CLIN 1002 – 4                              $1,067,640
                      5           CLIN 1002 – 5                                 $482,160
                      6           CLIN 1002 – 6                                 $206,640
                      7           CLIN 1002 – 7                                 $482,160
                      8           CLIN 1002 – 8                              $2,105,400
                      9           CLIN 1002 – 9                                 $500,000
                     10           CLIN 1003ac                                   $217,944
                     11           CLIN 1003bc                                   $108,972
                     12           CLIN 1009                                     $150,000
                     13           CLIN 1009 – 1                                  $14,000
                     14           CLIN 1009 – 2                                  $42,308
                     15           CLIN 1009 – 3                                 $340,000
                     16           CLIN 1009 – 4                                  $29,238
                     17           CLIN 1009 – 5                                  $28,123
                     18           CLIN 1009 – 6                                  $14,106
                     19           CLIN 1009 – 7                                 $130,000
                     20           CLIN 1009 – 8                                 $130,000
                                                                             4
                                                                               ($ 62,972)
                                                                           5
                                                                             ($ 331,769)
                                 Grand Total                                 $6,709,950




4
  Adjustment made due to agreement to deobligate ECP-009 for transaction number 1002 by $62,972.
5
  Adjustment made due to an agreement between the contractor and the government to assess the value for
partial work completed on transaction number 1002 (ECP-009). The total amount spent on transaction
number 1002 was $5.9 million; however, there was a reduction to this amount for $1,356,320 as a partial
termination for convenience. Subsequently, a termination proposal settlement was reached for a value of
$1,024,551, which was $331,769 lower than the partial termination for convenience, $1,356,320.


U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 12 

Appendix D
Major Contributors to this Report

                          Brooke Bebow, Director
                          Stephanie Christian, Audit Manager
                          Andrew Herman, Auditor in Charge
                          Frank Lucas, Auditor
                          Falon Newman-Duckworth, Auditor
                          Kalim Ahmad, Referencer




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 13 

Appendix E
Report Distribution

                          Department of Homeland Security

                          Secretary
                          Deputy Secretary
                          Chief of Staff
                          Deputy Chief of Staff
                          General Counsel
                          Executive Secretariat
                          Director, GAO/OIG Liaison Office
                          Assistant Secretary for Office of Policy
                          Assistant Secretary for Office of Public Affairs
                          Assistant Secretary for Office of Legislative Affairs
                          Director of Local Affairs, Office of Intergovernmental Affairs

                          United States Coast Guard

                          Audit Liaison

                          Office of Management and Budget

                          Chief, Homeland Security Branch
                          DHS OIG Budget Examiner

                          Congress

                          Congressional Oversight and Appropriations Committees, as
                          appropriate




U.S. Coast Guard’s Anti-Deficiency Act Violations for the Response Boat-Medium Major Acquisition Project for
                                       Fiscal Years 2004 Through 2009 


                                                  Page 14

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
